                   EVALUATION OF
             THE DEPARTMENT OF LABOR’S
              PURCHASE CARD PROGRAM




 OFFICE OF THE ASSISTANT SECRETARY FOR ADMINISTRATION
                    AND MANAGEMENT

_____________________________________________




                             REPORT NO.: 2E-09-001-0002
                             DATE ISSUED: December 4, 2002
                                                 TABLE OF CONTENTS




ACRONYMS AND GLOSSARY ................................................................................................ ii

EXECUTIVE SUMMARY ......................................................................................................... iv

BACKGROUND ........................................................................................................................... 1

PURPOSE, SCOPE, AND METHODOLOGY.......................................................................... 4

FINDINGS AND RECOMMENDATIONS .............................................................................. 6

          Finding A – Management Oversight and Control over the Purchase Card Program
                      Needs to be Strengthened............................................................................... 6

          Finding B – Current Policy and Procedural Guidelines Do Not Adequately Address
                      Key Aspects of the Program ........................................................................ 14

          Finding C – Improved Communication and Training Will Enhance the
                      Effectiveness of the Program....................................................................... 22

APPENDIX – Agency’s Response ............................................................................................ 26




                                                                   i
                             ACRONYMS AND GLOSSARY


ACRONYMS

AO           -       Approving Official

A/OPC        -       Agency/Organization Program Coordinator

BLS          -       Bureau of Labor Statistics

DOL          -       Department of Labor

FAR          -       Federal Acquisition Regulations

GSA          -       General Services Administration

ILAB         -       Bureau of International Labor Affairs

MCC          -       Merchant Category Code

MSHA         -       Mine Safety and Health Administration

OA           -       Office of Audit

OASAM        -       Office of the Assistant Secretary for Administration and Management

OIG          -       Office of Inspector General

PCIE         -       President’s Council on Integrity and Efficiency

PE           -       Procurement Executive

RASO         -       Regional Administrative Staff Officer


GLOSSARY

A/OPC                       Individual designated by the Agency/Organization to manage the
                            purchase card program for the Agency/Organization. Generally
                            serves as the focal point for answering questions, coordinating
                            applications, issuing and destroying cards, and reviewing reports.

Approving Official          Individual tasked with reviewing transactions of cardholders to
                            ensure proper use of the purchase card. Approving Officials make


                                              ii
                         sure that purchases are necessary for accomplishing the mission of
                         the agency.

Citibank                 Bank that the Department of Labor chose to service DOL’s
                         purchase card program.

CitiDirect               Web-based environment system that gives authorized
                         personnel access to a broad range of standard electronic
                         reporting information/data, as well as the ability to create
                         ad hoc reports.

Department               The Department of Labor, encompassing all of its program
                         agencies.

Micro-Purchase           As defined in FAR 2.101, an acquisition of supplies or services
                         (except construction), the aggregate amount of which does not
                         exceed $2,500.

Program Coordinator      Individual located in OASAM’s Division of Acquisition and
                         Management Support Services. The coordinator works with
                         Citibank, as well as the A/OPCs, Approving Officials, and
                         cardholders to facilitate administration of the credit card program
                         Department-wide.

Program Participants     Includes the Program Coordinator, A/OPCs, Approving Officials,
                         and Cardholders.

Simplified Acquisition   Policies and procedures for the acquisition of supplies
Procedures               and services, including construction, research and development,
                         and commercial items, when the aggregate amount does not exceed
                         the Simplified Acquisition Threshold.

Simplified Acquisition   As described in FAR 2.101, $100,000, except in
Threshold                the case of any contract to be awarded and performed, or purchase
                         to be made, outside the United States in support of a contingency
                         operation as defined in 10 U.S.C. 101(a)(13).




                                           iii
                                 EXECUTIVE SUMMARY



The Office of Inspector General conducted an evaluation on the adequacy of policies,
procedures, and internal controls over the Department of Labor’s Purchase Card Program. This
program is a vital tool to the business operations of the Department. It comprised 114,906
transactions totaling approximately $37.4 million for the twelve- month period of April 1, 2001,
to March 31, 2002. Our evaluation found that internal controls and written operational
procedures were not sufficient to detect and/or prevent potential misuse of the Government
purchase card. Of particular concern were the inconsistent implementation of purchase card
procedures within DOL agencies, and the lack of an adequate reconciliation process to ensure the
validity of monthly purchase card transactions.

The Department’s Procurement Executive has recently taken several positive steps to improve
the Purchase Card Program, such as the implementation of annual program reviews, and reviews
of cardholders that maintain a single purchase limit authority above the micro-purchase
threshold. However, we found that internal controls and written operational procedures were
inadequate to ensure that the goals of the Purchase Card Program are being fulfilled.
Specifically, the Department needs to increase management oversight and controls over the
program, update policy and procedural guidelines, improve the process used to transmit program
information to cardholders, and ensure that adequate training is provided for assigned program
responsibilities.


 FINDINGS AND RECOMMENDATIONS


Finding A:    Management Oversight and Control Over the Purchase Card Program
              Needs to be Strengthened

Within DOL, each program agency operates its purchase card program independently. However,
our review found that management (Agency Headquarters and Regional Program Managers) did
not provide a strong internal control structure that would require program agencies to
consistently adhere to OASAM policies and procedures for purchase card programs. In addition,
Agency/Organization Program Coordinators (A/OPC) did not provide sufficient information
regarding matters that impact the overall operation of the program. We recommend that
OASAM:

   Require A/OPCs to provide updated information on a regular basis regarding changes to
   program participant information, such as change of addresses, telephone numbers, and
   assigned duty station.

   Examine and modify, as needed, single and monthly purchase card limits in order to achieve
   ceilings that more accurately reflect spend ing patterns and agency needs.


                                               iv
   Require agencies to review and update Merchant Category Code (MCC) controls to minimize
   prohibited purchases.

   Re-examine GSA’s recommendations for:

           •   Establishing formal criteria for the selection of cardholders and approving
               officials’ accounts, single and monthly purchase limits, MCC blocks for usage,
               and deactivating or canceling purchase cards.

           •   Approving Official (AO) to cardholder common ratios to better ensure timely
               reviews of transactions.


Finding B:     Current Policy and Procedural Guidelines Do Not Adequately
               Address Key Aspects of the Purchase Card Program

We found that the absence of formal procedures affected all areas of the Purchase Card Program.
The Department’s processes and procedures were not detailed enough to ensure that all aspects
of an agency’s program were operating in accordance with applicable regulations. Since each
program agency operates its program independently, OASAM officials informed us that they do
not believe that they have authority to “police” the program. Moreover, they stated that purchase
card enforcement is the responsibility of management within each program agency. However,
the DOL Small Purchase Handbook states that OASAM is responsible for policy and procedural
guidance for the overall administration of the Purchase Card Program within the Department.
We recommend that OASAM:

   Update current policy and procedures, and publish appropriate changes, including the
   development of supplemental guidance and/or desk references, that inform program
   participants of their responsibilities on key aspects of the program.

   Require agencies to review (a) contracting authority for cardholders with purchasing
   authority above the micro-purchase threshold, and (b) the number of cardholders based on
   the agency’s need to better ensure realistic ceilings.

   Advise agencies to better ensure that purchase cards are only used by qualified individuals
   responsible for making purchases, and ensure that the complete Small Purchase Handbook is
   accessible to all program participants.

   Incorporate purchase card responsibilities in the performance standards for responsible
   OASAM employees, and encourage other program agencies to implement similar changes.

   Review and address factors under the “risk assessment” component for internal controls as
   referenced in GAO’s Standard for Internal Control in the Federal Government.




                                                v
Finding C:    Improved Communication and Training Will Enhance the
              Effectiveness of the Program

We found that the Purchase Card Coordinator was consistent in distributing policy and program
information to A/OPCs. However, we found that all A/OPCs did not consistently provide
necessary training and purchase card information to program participants. Therefore, there is
reduced assurance that program participants were kept abreast of relevant purchase card
information, and properly trained prior to receiving purchase cards. To strengthen internal
controls over the program, we recommend that OASAM:

   Consistently provide necessary information about the Purchase Card Program to all program
   participants.

   Establish formal training requirements for program participants prior to the issuance of
   purchase cards.

   Survey and evaluate current A/OPCs to determine training needed in order to fully utilize the
   capabilities of CitiDirect.


 AGENCY RESPONSE AND OIG CONCLUSION

In response to OIG’s official draft report, OASAM generally agreed with our findings. As a
result of corrective actions planned or already taken by OASAM, we consider all 12
recommendations to be resolved. The recommendations will be closed pending OIG’s receipt of
appropriate documentation of corrective actions as specified in the report. We have incorporated
excerpts from OASAM’s response in the Findings and Recommendations section of this report.
OASAM’s complete response is included as an Appendix to the report.




                                               vi
                                            BACKGROUND


In 1998, the General Services Administration (GSA) established a commercial purchase card program
called SmartPay to replace the 1994 International Merchant Purchase Authorization Card (I.M.P.A.C.)
program used by agencies to make small purchases. Under the auspices of the GSA SmartPay Program
agencies were authorized to select providers. The Department of Labor (DOL) chose Citibank Visa to
provide purchase card services to the Department. Within the Department of Labor (DOL), the goals in
implementing this program were to 1) simplify procurement, 2) maintain reasonable assurance that
purchases are consistent with procurement regulations, 3) expedite receipt of small purchases, and 4)
minimize related administrative costs.

GSA’s Blueprint for Success: Purchase Card Oversight, prepared by a working group of
Agency/Organization Program Coordinators (A/OPC), serves as an information source for preventing and
detecting misuse and fraud with Government purchase cards. DOL’s Small Purchase Handbook, Appendix
(revised in 1999) includes procedures for using the credit card for small purchases. The purchase card
should be used, whenever possible, in place of purchase orders for $2,500 or less, Standard Form 44
(Purchase order-Invoice-Voucher), and convenience checks. In addition, the Federal Acquisition
Regulation, part 13.003(e), requires agencies to use the purchase card and electronic purchasing techniques
to the maximum extent practicable in conducting simplified acquisitions.

In DOL, the Office of the Assistant Secretary for Administration and Management (OASAM) maintains
responsibility for providing general policy guidelines, management oversight, and technical assistance to
agencies regarding the purchase card program. Within OASAM, the Procurement Executive (PE) is
responsible for overall policies and procedures related to procurements and training under the purchase
card program.

Under provisions of the SmartPay program that allow agencies to select a provider, Citibank provides card-
based services to DOL. In coordination with Citibank, the OASAM Program Coordinator develops the
DOL task order under the GSA contract, and arranges for necessary training and/or training materials for
nationwide use.

The Director of OASAM’s Financial Management Operations and OASAM Regional Administrators are
responsible for the management and financial support of the credit card program within their servicing
areas, with the exception of the Mine Safety and Health Administration (MSHA) and the Office of
Inspector General (OIG).

In order to facilitate the daily operation of the Purchase Card Program, DOL developed a network of
A/OPCs to manage and monitor the program. MSHA and OIG have appointed an employee to serve as
A/OPC for their entire agency. ESA, ETA, OSHA and BLS appointed an A/OPC to handle only those
employees located in their national office. For regional employees, the agencies rely on a regional
OASAM employee to function as A/OPC for the region.




                                                     1
Figure 1 depicts the organizations with purchase card coordinators. Currently, there are a total of 17
A/OPCs who handle DOL’s Purchase Card Program.


                                                       Figure 1




OASAM regional offices internal structure, geographic location, and size determines the purchase
card hierarchy structure. Each of the regions have two designated A/OPCs, with exception of the
Boston/Ny, Philadelphia and Atlanta regions, which only have one A/OPC. (Source: Citibank)



 1/ OASAM HQ A/OPC handles the following agencies in                  2/ Regional A/OPCs handle regional cardholders in the
    addition to OASAM HQ cardholders: ARB, ASP, BRB,                    following agencies: ARB, ASP, BLS, ETA, ESA, OALJ,
    ECAB, ILAB, NSSB, OALJ, OCFO, OCIO, ODEP, OPA,                      OSHA, OSEC, PWBA, SOL, VETS, and WB.
    OSBP, OSEC, PWBA, SOL, VETS, and WB.




Within the DOL Purchase Card Coordinators Organization, program agencies designate Approving
Officials (AOs) who maintain responsibility for obtaining and controlling the use of credit cards issued to
cardholders within their jurisdiction. Each agency sets purchase limits for cardholders and AOs. The
cardholder is responsible for all purchases made with their assigned purchase card.




                                                                              2
Based on Citibank’s “Account Listing” report dated March 28, 2002, the Department had approximately
1,378 cardholder accounts 1 within the agencies and regional offices shown in Figure 2. During the period
of April 1, 2001, through March 31, 2002, cardholders made 114,906 transactions for a total of
$37,410,327.


                                                          Figure 2

                Total Number of Cardholders                            Total Number of Cardholders
                 National and Agency-Wide                                     Regional Offices
      160                                                  180

      140                                                  160

      120                                                  140
                                                           120
      100
                                                           100
       80
                                                            80
       60
                                                            60
       40
                                                            40
       20
                                                            20
          0                                                  0
                   Q




                  HQ




                                                                                      ia
                  HQ

                  HQ




                                                                                                        ity

                                                                                                                sco
                  HQ




                                       G
                                  HA




                                                                   Y




                                                                                            s
                                                                                    go
                                                                                     a
                SH




                                                                          lph




                                                                                           lla
                                                                                 ant
                                       OI




                                                                 n/N




                                                                                                     sC
                                                                                ica




                                                                                                               nci
                                 MS
               HA
                A




                                                                                           Da
                A
          AM




                                                                        de

                                                                             Atl
               BL




                                                             sto




                                                                             Ch
             ES




                                                                                                 nsa

                                                                                                              Fra
             ET




                                                                       ila
            OS
       AS




                                                            Bo




                                                                                                Ka
                                                                     Ph




                                                                                                        San
     *O




Several Federal executive departments have noted the potential for fraud and misuse of the purchase card in
their agencies. As a result, Congressional concern over the use of government purchase cards has risen in
recent years. In July 2001 and March 2002, the House Subcommittee on Government Efficiency, Financial
Management and Intergovernmental Relations, and the Committee on Government Reform held hearings
regarding the misuse of purchase cards by Department of Defense employees. In addition, the President’s
Council on Integrity and Efficiency’s Inspections and Evaluations Roundtable proposed a government-
wide evaluation of the purchase card program.




1
  In addition to the cardholder accounts, the Department has 103 “corporate accounts.” These accounts serve as a budgetary tool
that summarized funding information about all of the accounts under a particular hierarchy for that account.




                                                                 3
                                   PURPOSE, SCOPE, AND METHODOLOGY


    PURPOSE

The purpose of this evaluation was to assess whether the Department of Labor’s (DOL’s) internal control
procedures for the government purchase card program are adequate. The specific evaluation objectives
were to identify: (1) the adequacy of controls in place over the Purchase cards; (2) whether processes and
procedures in place were being followed; and,
(3) areas that could be strengthened in order to better ensure that the goals of the program are achieved.

    SCOPE

OIG’s Office of Audit (OA) frequently examines purchase card transactions under the procurement section
of the Annual Financial Statement Audit. Therefore, we limited our review to systemic policy and
procedural issues within the purchase card program, excluding convenience checks. Our review period
covered activities occurring between April 1, 2001, and March 31, 2002.

In addition to this report, we will issue separate reports to assess the internal controls over purchase cards
within the Bureau of International Labor Affairs (ILAB), the Mine Safety and Health Administration
(MSHA), the Bureau of Labor Statistics (BLS), and the Office of Inspector General (OIG).

    METHODOLOGY

To determine the adequacy of DOL’s internal controls over the Purchase Card Program, we examined:
Citibank standard reports such as Account Listing and Decline Authorization Reports, data from Citibank’s
ad hoc reporting database that produces customized reports, pertinent federal laws and regulations, and
DOL and Citibank guidelines and training materials. In addition to conducting a limited review of
transaction data for most of the agencies in the Department, we conducted an analysis of data from
OASAM Headquarters, ILAB, MSHA, BLS, and OIG. This included site-visits to headquarters and
selected regional offices in order to review data, records, and interview program participants.

We used the five components 2 of internal controls identified in GAO’s Standard for Internal Control in the
Federal Government to evaluate the Department’s internal control status. We also reviewed the
PCIE/ECIE Inspection and Evaluation Committee’s, A Practical Guide For Reviewing Government
Purchase Card Programs, as a planning tool.

We coordinated our review with OIG’s OA in order to avoid any duplication of efforts in the procurement
area. Further, OA conducted tests of files in OASAM, BLS HQs, MSHA, ETA and OSHA.

We interviewed the Department’s Purchase Card Program Coordinator and 16 of the Department’s
A/OPCs, as well as a selected number of Servicing Finance Offices’ staff members. We randomly sampled
and interviewed 24 cardholders and 16 Approving Officials from the selected agencies. We also
interviewed the Citibank Account manager to obtain clarification on report structures.



2
  GAO identifies the following five standards for internal controls: control environment, risk assessment, control activities,
information and communications, and monitoring.
                                                                 4
We tested internal controls over document receipt and acceptance, reconciliation of monthly statements,
pre-approval process of purchases, accountability after the cardholder made purchases, and indications of
violation of procurement laws. Specifically, our review of transactions included 13,648 out of 114,906
transactions (12 percent) for the period April 1, 2001 to March 31, 2002.

In order to increase our understanding of issues related to the Purchase Card Program, we attended GSA
training and seminars. We also attended Congressional hearings concerning government purchase cards.

We conducted our evaluation in accordance with the Quality Standards for Inspections published by the
President’s Council on Integrity and Efficiency.




                                                     5
                               FINDINGS AND RECOMMENDATIONS

The Department’s Procurement Executive has recently taken several positive steps to improve the Purchase
Card Program, such as the implementation of annual program reviews, and reviews of cardholders that
maintain a single purchase limit authority above the micro-purchase threshold. However, our evaluation
found that internal controls and written operational procedures were not sufficient to detect and/or prevent
potential misuse of the Government purchase card. Specifically, the Department needs to increase
management oversight and controls over the program, update policy and procedural guidelines, improve
the process used to transmit program information to cardholders, and ensure that adequate training is
provided to employees for assigned program responsibilities


 FINDING A: MANAGEMENT OVERSIGHT AND CONTROL OVER THE
           PURCHASE CARD PROGRAM NEEDS TO BE STRENGTHENED


Office of Management and Budget (OMB) Circular No. A-123, Management Accountability and Control,
dated June 1995, states that agency managers shall incorporate management controls in the strategies,
plans, guidance, and procedures that govern their programs and operations. However, our review found
that management (Agency Headquarters and Regional Program Managers) did not provide a strong internal
control structure that would require each program agency to consistently adhere to OASAM policies and
procedures for purchase card programs. In addition, key features of the purchase card program that could
be used as preventive measures to reduce the occurrence of credit card abuses were not fully implemented.

Management Oversight

Within DOL, each program agency operates their purchase card program independently.
We found that management was not enforcing program requirements for: ensuring an appropriate
separation of duties between Approving Officials and cardholders; maintaining up-to-date program
information; and, ensuring the appropriate use of Government purchase cards regarding the appropriateness
of transactions, as well as the use of purchase cards solely by authorized cardholders.

Approving Officials

The Standards for Internal Controls in the Federal Government states, in part, that key duties and
responsibilities need to be divided or segregated among different people to reduce the risk of error or fraud.
In addition, GSA’s Blueprint for Success: Purchase Card Oversight, herein referred to as “GSA’s
Manual,” states that the responsibilities of cardholders, approving officials, and A/OPCs not overlap in
order to ensure that management controls are not circumvented. According to GSA publications and DOL
purchase card policies and procedures, Approving Officials (AOs) are responsible for selecting
cardholders, making purchase decisions, monitoring purchase card activity, and ensuring that all
transactions are in accordance with Government requirements. DOL’s policy recommends that the AO
maintain supervisory responsibility over the cardholder supervisor, and be at least one pay grade above the
cardholder. However, we identified several cases where the same official functioned as the AO and the
cardholder. We also found numerous instances where cardholders were also AOs for each other.

GSA’s Manual for operating a purchase card program suggest that the number of cardholders and the
volume of transactions for which an approving official is responsible needs to be reasonable so that the
official may conduct reviews in a timely manner. Timely reviews of transactions are necessary to ensure
                                                     6
detection of possible cases of card misuse and fraud. GSA’s Manual states that the most common AO to
cardholder ratio is between 1:4 and 1:10. We found that most of the AOs had ten or less cardholders
assigned to them. However, 19 of the Department’s 435 AOs were assigned more than ten cardholders. In
one case, we identified an AO with as many as 34 cardholders assigned.

According to OMB Circular A-123, Management Accountability and Control, management should ensure
that appropriate authority, responsibility, and accountability are defined and delegated. As part of the
Purchase Card Program, AOs are responsible for conducting monthly reconciliations to ensure the
propriety of cardholder purchases. However, we found instances where there was no AO signature to
indicate that a reconciliation had been conducted.
 In addition, several agencies did not formally designate Alternate AOs to conduct the purchase card review
functio ns in their absence. Our review of agency records disclosed that if an AO was not available to
review the cardholder’s monthly statement and supporting documentation, the reconciliation process
usually did not take place, or unauthorized individuals signed for the AO.

Maintenance of Current Program Information

The Standards for Internal Control in the Federal Government states, in part, that transactions and other
significant events need to be clearly documented and readily available for examination. DOL policies and
procedures do not require A/OPCs to routinely update program participant information such as change of
addresses, telephone numbers, and the location of cardholders within an A/OPC’s area of responsibility.
OASAM frequently receives external requests for information on DOL cardholders and contracting
officials. In order to respond with accurate information, the Program Coordinator must request A/OPCs to
update purchase card information. This is one of the times that program participant information is updated.
In order to better ensure an appropriate level of accountability and control, management should consistently
maintain accurate program information that includes current program participant information.

Appropriate Use of the Purchase Card

According to DOL policy, it is the joint responsibility of the cardholders’ respective AOs and procurement
officials at local and headquarters offices to identify and flag unauthorized micro-purchases, and take
appropriate corrective actions. In order to allow agencies the maximum latitude in purchase decisions,
GSA’s Master Contract excludes only a few categories of purchases, such as long-term rental or lease of
land or buildings, travel or travel-related expenses, and cash advances. DOL’s policy does not fully
address appropriate use of the purchase card. However, it does cite prohibited uses, which include:

   §   Travel and travel-related services
   §   Advisory and assistance services
   §   Services of a continuing or long-term nature, which are substantial and should be acquired through
       another procurement mechanism
   §   Telephone line services provided via the Federal Telecommunications System Contract
   §   Rental or lease of space
   §   Repair of GSA vehicles
   §   Clothing (including footwear), except in emergency situations when required for safety
   §   Supplies, furniture, and equipment available through mandatory sources of supply and where the
       vendor does not accept payment via credit card
   §   Fragmented micro-purchases
   §   Any other items that require specific approval(s) by officials above the level of the cardholder

Exceptions to prohibited uses of the purchase card should be pre-approved or documented by the A/OPCs.
                                                     7
We found that many of the cardholders and approving officials were not fully aware of what constituted
purchase card misuse. GSA’s Manual states examples of misuse such as: purchases which exceed the
cardholder’s limit, purchases which are not authorized by the agency, purchases for which there is no
funding, purchases for personal consumption,
purchases that do not comply with FAR and/or other applicable procurement statutes and regulations, and
purchases that are billed by merchants, but never received by the agency.

Based on our review of Citibank’s Decline Authorizations Report 3 , 624 cardholder accounts made 3,470
“decline attempts” for purchases totaling approximately $2.5 million. For example, the report indicated
that cardholders attempted to make 816 transactions that exceeded the cardholders’ authorized credit limit.
Further, we noted that Citibank declined other cardholders’ transactions for such reasons as exceeding
transaction limits, expired cards, closed accounts, and excluded merchant category codes (MCCs), which
are indications of potential purchase card misuse. Many of these declined transactions were more prevalent
during the end of the fiscal year.

Based on information provided by GSA for fiscal year (FY) 2001, we compared DOL’s average transaction
rate of $252 to other agencies. In our opinion, DOL’s low average transaction rate, along with only 84 out
of 1,378 cardholders with single purchase limits greater than $2,500 may have contributed to the likelihood
of our evaluation not disclosing high-dollar value misuses of the purchase card in DOL in comparison to
misuses of the purchase card at other Federal agencies. However, this does not prevent the misuse of the
card for purchases with low dollar amounts. As shown in Figure 3, only two other agencies, the
Departments of Veterans Affairs and Interior, had lower average transaction rates.

                                                                          Figure 3


                         Purchase Card Utilization Statistics by Federal Agency
                                                FY 2001

                            700
                                                                                                            $599 $605
                            600                                                                 $567 $578
                                                                                         $498
                            500
             Average                                                    $394 $409
                                                                                  $415
                            400                                  $357
           Transaction                                    $294
                            300                 $252 $259
                $                        $222
                            200    $126

                            100
                               0
                                                   H e




                                                       se
                                                  m n
                                                         n
                                                 U ry




                                                 ef e
                                                ea r




                                                       gy
                                        Tr du DA




                                                       D
                                                  La r




                                                En S


                                                Ju te
                               VA




                                                        c
                                             Tr bo




                                             o m io
                                                     rio




                                            sp tio




                                             * D tic
                                                    er

                                                     U
                                                     H
                                                    su




                                                   en
                                                     a
                                                   er
                                           C rtat
                                            E S




                                                  St
                                    te




                                                   H
                                          an ca




                                                   s
                                   In




                                                o




Our evaluation found many of the same issues identified in previous OIG audits since FY 1998, such as
missing credit card statements and supporting documentation, and policy and procedures that have not been
updated. Our review of transaction data also identified several micro-purchase transactions that could
indicate potential instances of misuse. Specifically, we reviewed 13,648 out of 114,906 transactions (12

3
    This report covers declined data for the period of September 1, 2001 through March 30, 2002.
                                                                               8
percent) for the twelve- month period. Based on the vendors and/or MCCs, we identified the following
questionable transactions:

           •   108 travel-related transactions for individual hotel rooms, restaurants, airlines, vehicle
               rentals, and lodging

           •   95 memberships to charitable and/or social organizations transactions

           •   45 transactions for long-term monthly rentals

           •   559 transactions for purchases at antique stores, craft and hobby stores, jewelry stores,
               department stores, variety/discount stores, and drug stores

           •   75 transactions for non-office furniture

These transactions should have been subjected to further examination by the responsible A/OPCs. Even
though it is within the agency’s discretion to determine if such purchases enhance the effectiveness of the
agency in accordance with applicable appropria tion laws, these transactions appeared to be non-traditional
purchases without written justifications to support their purchase as a necessary expense to a particular
appropriation or program.

Our review also disclosed purchases for personal and other questionable items such as cosmetics, gift
certificates, clothing, picture frames, plaques or trophies (other than performance based or incentive
awards), refreshments, refrigerators, employee gifts, conference mementos, personal memberships and
promotional items. For example, management approved the purchase of over $600 for supplies, which
included two microwaves, a vacuum cleaner, toaster, can opener, coffee makers, a wet jet kit, condiments
(salt, pepper, and sugar), and other kitchen items. A finance specialist brought these purchases to the
attention of the Department’s acquisition policy office, who requested the manager’s justification for the
purchases. During the course of our field work, the manager provided a response to agency management
officials; however, the response did not satisfy management’s concerns. As a result, OASAM issued a
memorandum of reprimand to the manager citing the inappropriateness of such purchase card activity.

Use of Purchase Card by Unauthorized Individuals

Office of Management and Budget Circular No. A-123, Management Accountability and Control, states
that management controls must provide reasonable assurance that assets are safeguarded against waste,
loss, unauthorized use, and misappropriation. However, we found incidences where the purchase card
and/or account numbers were made accessible to individuals other than the assigned cardholder.
Unauthorized individuals made purchases over the phone and the Internet. In addition, we identified
multiple purchases with the characteristics of a “split purchasing” pattern, and merchant receipts with other
than the cardholder’s signature on orders placed via the telephone.

We found that cardholders had delegated their purchase card responsibilities to an administrative assistant
or an administrative staff person. The administrative assistant was usually the individual responsible for
maintaining office supplies, and ensuring that office equipment was available and operational. However,
these individuals were unfamiliar with appropriate procurement procedures, and were not designated as
authorized users of a purchase card.

Many of the cardholders we interviewed understood that the card had been issued for their use exclusively.
However, because of workload or convenie nce, it was easier for them to allow other individuals to use the
                                                   9
card. The cardholders permitted staff members with legitimate purchase requests to use their account
number to directly place the order or use the designated administrative assistant to place the order. Several
of the cardholders established procedures that would allow the requestor to inform the designated
administrative assistant of their needs. Then, the administrative assistant would document and verify the
request with the cardholder before placing the order. The cardholders were unaware that allowing
unauthorized individuals access to their account number could potentially compromise the integrity of the
purchase card.

A/OPC Management Control

We found that A/OPCs were not making use of available control mechanisms such as spending limits,
Merchant Category Code (MCC) blocks, deactivating purchase cards with minimal inactivity, etc. as a
means of preventing and detecting misuse and/or fraud with Government purchase cards. These controls
are also useful in providing the agency a means of monitoring how and where cardholders use their card.

Credit limits are used as a means to restrict single purchase limits and monthly expenditures by the
cardholder, and serve as a budgetary tool and deterrent for excessive cardholder misuse. However, A/OPCs
and agency officials did not set realistic monthly limits that reflected cardholders’ spending patterns and
needs. For example, we found one cardholder who had three cards with single purchase limits of $2,500,
and monthly purchase limits of $50,000 for each card. Therefore, the cardholder had a total monthly single
purchase limit of $7,500, and a monthly credit limit of $150,000. While there may be reasons a cardholder
may have more than one card, we found the agency did not have written justification for the cardholder
having multiple cards. The lack of realistic ceilings allows cardholders to circumvent the system by
making numerous small purchases without reaching their monthly ceiling.

The bankcard association and Citibank establish MCCs to identify different types of businesses. Merchants
select the codes that best describe their business. Using these codes, agencies can limit or block the types
of businesses where the purchase card can be accepted by providing Citibank a list of restricted MCCs for
their agency. Our review of transactions disclosed that cardholders used the purchase card for items that
should have been made with travel and fleet credit cards. Citibank officials exp lained that it is the
A/OPCs’ responsibility to provide restricted MCCs. However, agency A/OPCs had not taken steps to
prohibit these types of transactions with MCC restrictions.

DOL policies and procedures do not address actions that should be taken whe n a purchase card is unused
for an extended period of time. GSA’s Manual recommends that purchase cards not used on a continuous
basis should be deactivated. However, we found that at least 27 cardholders had not used the purchase card
for eight months or more, but their cards had not been deactivated. Citibank officials explained that
A/OPCs are responsible for canceling or deactivating accounts with little or no activity. However,
A/OPCs and other agency officials had not developed a process for deactivating purchase cards with
minimal activity.




                                                     10
RECOMMENDATIONS

We recommend that OASAM:

   1. Require A/OPCs to provide updated information related to program participants
      on a regular basis.

   2. Examine and modify, as needed, single and monthly purchase limits in order to
      achieve ceilings that more accurately reflect spending patterns and agency needs.

   3. Require agencies to review and update MCC controls to minimize prohibited
      purchases.

   4. Reexamine GSA’s recommendations for:

           •   Establishing formal criteria for the selection of cardholders and approving
               officials’ accounts, single and monthly purchase limits, MCC blocks for
               usage, and deactivating or canceling purchase cards.

           •   AO to cardholder common ratios.


OASAM’s Response

Recommendation 1: “The Procurement Executive will issue a memorandum to DOL agencies requiring
an initial update of information and will require future updates on a quarterly basis. This initial
information will be captured through a centralized database that will be maintained by OASAM, beginning
November 2002. Agencies will also be requested to review the need of t heir cardholders to maintain
purchasing authority above the micro-purchase threshold and the number of cardholders based on the
their agencies’ programmatic need. Agencies will also be requested to provide a list of those cardholders
that require cards above the micro-purchase limit and justification for the number of cardholders that
exceed the recommended ratio (less than 1:10). OASAM will conduct periodic reviews of the database to
ensure information is updated regularly. This requirement will also be included in a revised purchase card
handbook.”

Recommendation 2: “As a policy, we have limited single purchase authority to $2,500, unless the
purchase cardholder is a warranted contracting officer or an individual with unique requirements who has
completed appropriate training. In the Procurement Executive’s memorandum to DOL agencies (noted in
Response #1 above) we will include information on the current purchase authority of each participant. For
those accounts with single purchase card authority over $2,500, we will require that A/OPCs confirm in
writing that the appropriate limit is reflected. To ensure realistic monthly ceilings are consistently
established, we will require that A/OPCs evaluate prior monthly total expenditures on a quarterly basis to
determine whether monthly ceiling amounts require adjustments. In instances where an exception is
warranted, A/OPCs will be required to provide justification to the approving official and maintain records
of those approvals.”

“It should be noted that certain cardholders, such as warehouse personnel and organizations with a higher
volume of monthly purchases, might have a legitimate need for higher monthly limits. Currently, the
Departmental default limit is set at $10,000 per month. While there are no statutory or regulatory

                                                     11
guidelines establishing a monthly threshold, we will require that A/OPCs maintain justification for
cardholders exceeding the $10,000 monthly limit and closely monitor accounts that exceed that threshold.”

Recommendation 3: “…After consultation with A/OPCs, we will develop a DOL template of proposed
appropriate MCC codes to be shared with the Agencies. After notifying cardholders, approving officials,
and administrative officers of this change and its potential impact on future purchases, we will instruct
Citibank to convert the current MCC controls to the new DOL default template and apply it department -
wide. Specific requests for exceptions to the default template will be reviewed by the DOL’s Purchase
Card Coordinator and will require the written approval of the Director, Division of Acquisition
Management Services (DAMS).”

Recommendation 4: “We will examine the GSA recommendations to ensure that our written policies and
procedures are consistent with recommended criteria. We will establish a policy for a ratio of approving
officials to cardholders within the GSA recommended ratios.…offices that currently exceed this ratio will
be requested to adjust their operating ratios accordingly, or provide written justification to DAMS,
outlining why that ratio should be exceeded.”

OIG’s Conclusion

We consider recommendations 1-4 to be resolved. If fully implemented, OASAM’s proposed corrective
actions would adequately address our recommendations. The recommendations will be closed upon OIG’s
receipt of the information listed below which should be submitted to this office no later than January 31,
2003:

   •   The memorandum/policy issuance to DOL agencies requesting updated program information as
       discussed above in your response to recommendations 1 and 2. This updated information should
       also include the official designation and training status of the alternate approving officials.

   •   A copy of DOL’s MCC template, including the written instructions to Citibank to implement the
       new template.

   •   DOL’s written policy regarding the ratio of approving officials to cardholders, as well as any
       agency justifications fo r exceeding that ratio.




                                                    12
 FINDING B: CURRENT POLICY AND PROCEDURAL GUIDELINES DO NOT
            ADEQUATELY ADDRESS KEY ASPECTS OF THE PROGRAM


The Standards for Internal Control in the Federal Government state that management is respons ible for
developing detailed policies, procedures, and practices to fit their agency’s operations and to ensure that
they are built into an integral part of operations. However, we found that that absence of formal procedures
affected all areas of the Purchase Card Program. The Department’s processes and procedures were not
detailed enough to ensure that all aspects of an agency’s program were operating in accordance with
applicable regulations. Since each agency operates their purchase card program independently, OASAM
officials informed us that they do not believe that they have authority to “police” the program, and that
purchase card enforcement is the responsibility of management within each program agency. However, the
DOL Small Purchase Handbook states that OASAM is responsible for policy and procedural guidance for
the overall administration of the Purchase Card Program within the Department.

GSA Manual recommends that an agency’ s policy, at a minimum, address the following areas to ensure
clear guidance to A/OPCs, Approving Officials, and Cardholders:

   Ø Delegation of Contracting Authority                  Ø Reconciling Accounts
   Ø Training Requirements                                Ø Review Procedures
   Ø Account Limits                                       Ø Criteria for Establishing Accounts
   Ø Span of Control for Approving Officials              Ø Criteria for Canceling Account with
     and A/OPCs                                             Minimal Activity
   Ø Receipt and Acceptance of Supplies and               Ø Uses of the Card
     Services


We found that the Department’s purchase card procedures did not adequately communicate guidance on
several of key aspects. In addition, this guidance was only available to program participants in hardcopy,
and could not be accessed through the DOL website.

Delegation of Authority

Federal Acquisition Regulations (FAR), Part 1.603-3(a) states “Contracting officers shall be appointed in
writing on an SF 1402, Certification of Appointment, which shall state any limitations on the scope of
authority to be executed.” In addition, FAR, Part 1.603-3(b) states, “agency heads are encouraged to
delegate micro-purchase authority to individuals…who will be using the supplies or services being
purchased. Individuals delegated this authority are not required to be appointed on an SF 1402, but shall
be appointed in writing in accordance with agency procedure.” However, we found that DOL’s policies
and procedures do not inform program participants of the Department’s current delegations of authority.
Further, we found that OASAM’s Office of Acquisition and Management Support Services did not
maintain
(1) adequate records that specified authorities delegated to procurement officials in the Department, (2)
copies of current appointments (SF 1402) of contracting officers, or (3) written appointments for those
individuals delegated micro-purchase authority. Also, the Program Coordinator informed us that OASAM
does not require agencies to designate in writing those cardholders with delegated micro-purchase
authority, which contradicts requirements as outlined in the FAR.


                                                     13
Procurement delegation of authority sets limits and informs procurement officials of their contracting and
grant limitations including spending and usage limitations. DOL officials at headquarters and in the
regional offices may delegate procurement authority up to $2,500. In a Departmental memorandum dated
May 24, 2002, the Procurement Executive reiterated to Administrative Officers and Regional
Administrators that “…no one has been given authority to use the purchase card in excess of the micro-
purchase threshold [$2,500] other than for payment against existing purchase orders or contracts. Only
warranted contracting officers, and some purchasing agents, have the training and have been given the
authority to use the purchase card above this dollar threshold.”

Based on single purchase limits provided by A/OPCs to Citibank, 94 percent, or 1,294, of DOL’s
cardholders can make single purchases of $2,500 or less. The remaining 6 percent, or 84 cardholders must
be trained and warranted contracting officers/purchasing agents with the authority to use the purchase card
above the micro-purchase threshold. However, we could only verify that 24 of the 84 cardholders had the
qualifications for a single purchase limit greater than $2,500.

Receipt of Purchases

OMB Circular No. A-123 states that transactions should be promptly recorded, properly classified and
accounted for in order to prepare timely accounts and reliable financial and other reports. However, since
documentation procedures used by cardholders varied by agency, we were unable to determine whether
supplies and services ordered were actually received from the vendor/merchant. Documentation such as
packing slips, invoices, and charge card slips did not always identify the recipient, date received,
authorized signatures, and a description of the item or service.

DOL’s policy does not indicate the specific property and equipment that must be recorded, tracked, and
verified. However, DOL policy related to the purchase of reportable equipment states, “…when sensitive
or mission critical non-expendable personal property is purchased by the credit card, the cardholder
should follow normal procedures for assuring this is recorded in the appropriate Departmental Property
Management System…If in doubt as to whether a specific item is reportable, the administrative office
should be contacted for assistance.”

Our review of program agencies’ records showed that there was minimal documentation for the purchase of
and accounting for sensitive or mission critical non-expendable personal property items such as computers,
cellular phones, audio/visual equipment, non-ADPE communications equipment, radios, calculators,
medical/laboratory equipment, safety/test equipment, and specialized tools. For example, one agency
purchased two color televisions, a digital video recorder, and a digital camera in one transaction.

The DOL Small Purchase Handbook requires the use of requisition forms (DL1-1s) and purchase logs.
Requisition forms require several key elements including a description of articles or service; the requestors’
and supervisors’ signatures; and, the quantity and amount of purchase. Several program participants
interviewed believed that the Department no longer required the use of these documents since the Appendix
to the DOL Small Purchase Handbook is all that they were provided and it does not address the use of
requisition forms and/or purchase logs. In addition, DOL’s policy only required cardholders and/or finance
offices to retain appropriate records until the account is billed and settled; however, most agencies
maintained the official documentation in their finance offices for various periods of time.

Review and Reconciliation Process Is Not Consistent

Based on DOL’s policy and procedures, AOs are responsible for reviewing purchases made by cardholders.
However, we found that many AOs did not conduct thorough reviews of the monthly statements received
                                                     14
from cardholders or forward the statements to the finance office for payment. Instead, they relied on their
budget or administrative staff to alert them of potential credit card issues. Because of inadequate training,
AOs were not fully aware of their program responsibilities for ensuring that all purchases made by
cardho lders were appropriate.

Our review disclosed that the reconciliation process was not functioning as intended. For example, we
identified missing monthly statements, inadequate documentation to support transactions, absent or
incomplete purchase logs, inadequate descriptions of cardholder purchases, insufficient purchase data
provided by the vendor/merchant, no proof of delivery, non-availability of credits and dispute
documentation, or missing written justification/approval for exceptions.

DOL policy states, “…within five working days from the date signed by the Approving Official, local
procurement offices are required to forward memo statements, purchase invoices, and Approving Official
summary account listings to servicing finance offices. Processing is not to be delayed pending resolution
of procurement issues, since these bills are subject to provisions for the Prompt Payment Act. The original
copy of the approved Memo Statement along with the corresponding charge card slips shall be forwarded
to the servicing finance office.” However, A/OPCs and finance office officials stated that they did not
receive reconciled monthly statements with supporting documents in their office by the required due date.

One of our selected sites had 71 active cardholders during a three- month period. For that period, 31
cardholders did not submit their reconciled statements by the required due date. Nine of these cardholders
did not submit their reconciled statement for at least two months, and five of these nine cardholders did not
submit reconciled statements for all three months. We examined Citibank’s Account Activity4 for two of
the cardholders, and identified potential indications of credit card misuse such as purchases in even dollar
amounts, frequent purchases with the same vendor, and prohibited MCCs.

GSA’s Manual states that agency purchase card policies should address reviews to be undertaken by the
AO and A/OPC. DOL purchase card policy only requires BLS and regional OASAM offices to forward
certified monthly statements and documentation received from the cardholders to the A/OPC. The other
agencies in the Department forwarded their monthly statements and documentation directly to the finance
offices for payment. If A/OPCs are included in each agency’s reconciliation process, it could serve as an
additional line of defense in mitigating risks to the agency. In addition, cardholders should use a
standardized form to provide additional information to A/OPCs on questionable transactions. An example
is provided on the GSA website:
http://www.gsa.gov/attachments/GSA_PUBLICATIONS/pub/PurchaseCardOversight.

During our review, we noted that some agencies were proactive in taking steps to ensure an effective
reconciliation process. For example, one agency A/OPC suspends a cardholder’s account if they do not
reconcile their monthly purchases by a designated date. This practice has helped to minimize the problem
in that agency. Other Federal agencies have used even more detailed procedures to enhance the process to
include an agency-wide card suspension penalty for those cardholders who do not submit reconciled
statements in a timely manner. The first card suspension requires the approving official to document that
they have completed the required reconciliation. The A/OPC would then reinstate the purchase card within
24-36 hours. If the A/OPC suspends the card a second time during a given time period, the card would be
suspended for several weeks after the AO completed the reconciliation. In the case of a third suspension,
the A/OPC has the discretion to cancel the cardholder’s account. Once an A/OPC cancels the account, the
cardholder must wait 6-12 months before a new account could be opened.

4
 Citibank’s Account Activity report provides details on each transaction such as date, type, merchant name and dollar amount.
This report is particularly useful for identifying suspicious merchants, unusually high spending patterns or untimely purchases.
                                                               15
Purchase Card Cancellation Procedures

A/OPCs and the Department’s Program Coordinator have the authority to suspend or cancel purchase cards
within their area of responsibility. Purchase cards can be canceled for reasons such as a change in the
cardholder's job status, separation or retirement from DOL, or cardholder misuse. GSA’s Manual outlines
the process used to initiate suspension or cancellation procedures.

Our review disclosed that accounts were being maintained for former purchase card participants, including
AOs and A/OPCs, who were no longer employed by the Department. For example, one AO had left the
Department over two years ago, but their purchase card was still active. In addition, we found two cases
where program agencies continued to use accounts in cardholders’ names even though those cardholders
were no longer assigned to the agency.

Based on interviews with A/OPCs, we found that there was no mechanism in place to alert A/OPCs of
administrative changes regarding a program participant or responsible official. In fact, A/OPCs stated that
they only become aware of administrative changes regarding cardholders and AOs by chance or “word of
mouth.” In the absence of cont rols to immediately terminate purchase cards based on administrative
changes, the vulnerability of purchase cards to abuse is greatly increased.

Dispute Resolution Process

GSA’s Manual provides instructions regarding the dispute resolution process. These instructions state that
in most cases, the cardholder should contact the merchant directly to resolve any disputed charges. If the
cardholder and merchant are unable to resolve the dispute, the cardholder should complete a dispute form.
All disputes must be reported to the agency’s customer service representative within 60 days of receipt of
the disputed statement. The contractor will suspend the disputed charge, and provide immediate temporary
credit to the account pending resolution of the matter. According to the GSA contract, if cardholders do
not officially dispute a purchase within 60 days after receipt of the disputed statement, the cardholder is
responsible for the charge, and the Government purchase card will not be credited.

 Our review found that when a discrepancy was identified on the invoice, the cardholder was usually able
to informally resolve the dispute with the merchant. However, we found that cardholders did not always
document their dispute resolution attempts. There were cases of unexplained credits on statements, and
instances where the cardholder was waiting for a credit from the merchant. However, because attempts to
resolve the discrepancies were not documented, there was no mechanism to ensure that the dispute was
appropriately resolved or that the Government purchase card was properly credited for any amounts due.

Based on discussions with cardholders, they were not familiar with the dispute resolution process, and the
timeframes for initiating specific actions as part of this process. Many of the program participants
informed us that they would like to receive information regarding the dispute resolution process, and
related documentation procedures.

GSA’s Manual states that A/OPCs are required to monitor disputes filed by cardholders. However, we
found that the A/OPCs were not always aware of on-going disputes since a notification process was not in
place. Also, in cases where the cardholder formally initiated the dispute resolution process, there was no
clear designation of whether the A/OPC, SFO, AO, or cardholder maintained responsibility for monitoring
the dispute throughout the resolution process. Controls over the dispute resolution process need to be
established in order to better ensure the appropriateness of Government purchase card payments.

                                                    16
Accountability Over Purchase Card Program Operations

As discussed in the Background section of this report, the Department developed a network of A/OPCs to
manage and monitor the program. The majority of the A/OPCs were OASAM employees who performed
the A/OPC responsibilities in addition to their regular duties. We found that purchase card responsibilities
were not clearly linked to program participants’ performance standards. The absence of this link greatly
contributed to a lack of accountability by program participants who regarded their purchase card program
responsibilities as an incidental function as compared to those specific duties and responsibilities outlined
as performance standards for rating purposes. Responsibilities related to the Purchase Card Program need
to be included in performance standards to better ensure accountability over program operations.
RECOMMENDATIONS

We recommend that OASAM:

   5. Update current policy and procedures, and publish appropriate changes, including
      the development of supplemental guidance and/or desk references that guide
      program participants on key aspects of the program. The policy and procedures
      should include such items as:

           •   implementation of a dual review process where all A/OPCs are actively
               involved in the review of purchase card transactions /appropriate
               documentation;
           •   record retention requirements for purchase card documentation;
           •   requiring cardholders to use purchase credit card logs and requisition
               forms to track purchase card activity.

   6. Require agencies to review their need for contracting authority for cardholders
      with purchasing authority above the micro-purchase threshold and the number of
      cardholders based on the agencies’ need.

   7. Advise agencies to better ensure that qualified individuals responsible for making
      purchases only use purchase cards, and ensure that the complete Small Purchase
      Handbook is accessible to all program participants.

   8. Recommend that managers and supervisors incorporate purchase card
      responsibilities in the performance standards for responsible OASAM program
      participants, and encourage other program agencies to implement similar changes.

   9. Review and address factors under the GAO’s “risk assessment” component for
       internal controls as referenced in GAO’s Standard for Internal Control in the
      Federal Government Components of Internal Control.


OASAM’s Response

Recommendation 5: To address this recommendation:

   §   “In August 2002, DOL Spotlight Number 764 was issued, outlining conduct and responsibility for
       safeguarding and using the Department’s purchase card. It specifically highlighted responsibility
       to: (1) safeguard the storage and availability of purchase cards, (2) ensure that only authorized
                                                     17
       official purchases are made, (3) training cardholders, and (4) the non- transferability of purchase
       cards to other individuals.”

   §   “The Division of Acquisition Management Services will develop a standardized checklist for
       A/OPCs to use when reviewing purchase card accounts and a desk reference for cardholders. This
       checklist will allow A/OPCs to periodically review their Agency purchase card programs for
       compliance with established departmental thresholds, limitations and training requirements. We
       anticipant issuing this guidance by the end of the first quarter of FY 2003.”

   §   “The DOL Purchase Card Handbook will be updated to reflect policy changes, including restricted
       or prohibited purchases, ethics and record retention requirements, reconciliation of statements, and
       purchase card logs. In addition, we will include criteria that will be used to determine if, when,
       and how credit card accounts are to be suspended or terminated indefinitely (e.g., abuse or transfer
       of the cardholder). The revised Handbook will be issued by the end of 2nd quarter in FY 2003.”

Recommendation 6: See Response to Recommendation # 2.

Recommendation 7: “As noted in Response #5, we have already issued DOL Spotlight No. 764, which
reiterates the prohibition of the use of the card by individuals other than the cardholder designated on the
card. OASAM will work with DOL Agency financial management servicing offices, to implement a training
program for all current and new cardholders, approving officials, and A/OPCs. We will set target dates
for individuals who are found to have not completed required training, and will monitor compliance with
those dates. This will become a part of our quarterly report and update systems with A/OPCs.”

“The General Services Administration (GSA) currently offers free web-based purchase card training for
cardholders and approving officials. These courses will be primary tools to conduct the training, and will
be supplemented by other sources as the need arises. OASAM will continue to explore alternative sources
of desktop purchase card training that will facilitate extending this training to the field.”

“In addition, we have begun planning for our first Purchase Card Conference, which will be held in the
first quarter of FY 2003. The focus of the conference for A/OPCs, approving officials and others from the
procurement community is to set a more uniform approach to managing the purchase card program. The
conference will be used to promote increased oversight and control of the purchase card program and
ensure the appropriate use of the card. As part of the conference, we will include training on
verification/reconciliation of cardholder purchases, required documentation and information on
purchasing limits. In addition, Citibank will conduct training on how to query special and ad-hoc
reports.”

Recommendation 8: “Included in the Procurement Executive’s memorandum to DOL Agencies will be a
recommendation that managers and supervisors include performance elements in the performance
standards of cardholders, approving officials, and A/OPCs. Sample elements will be provided that may be
adapted to reflect the specific responsibilities of their purchase card officials.”

Recommendation 9: “GAO defines ‘risk assessment’ as an assessment of the risks the agency faces from
both external and internal sources. As noted in the draft report, DOL has a low percentage of employees
with purchase cards compared to other agencies and a low single purchase threshold that will mitigate the
harm in the case of abuse.”
“OASAM has also reduced risks associated with the Purchase Card Program by monitoring, requiring
documentation, and purchase card activity review and approval. Since January 2001, OASAM has
conducted purchase card reviews of the Bureau of Labor Statistics, ETA’s Office of Job Corps, and the
                                                    18
Mine Safety Health Administration. These reviews include a sampling of purchase card transactions in
order to determine vulnerabilities. We have specifically focused on questionable purchases, and missing
documentation. Although our reviews have revealed some inappropriate practices, to date we have not
uncovered specific examples of waste, fraud, or abuse. Additional procurement reviews are scheduled for
FY 2003. OASAM also plans to institute an Agency Purchase Card Self Certification Program.
Implementation will include the submission of data on the agencies’ credit card activity, problem areas,
how problems are being addressed, and certification of the submission by the Agency Head. This annual
review will supplement the targeted procurement management reviews being conducted by OASAM and
assist in identifying trends or problem areas that require increased technical assistance.”

OIG’s Conclusion

We consider recommendations 5-9 to be resolved as a result of OASAM’s planned corrective actions.
These recommendations will be closed, pending receipt of the following material. This documentation
should be provided to this office no later than January 31, 2003:

   •   A standardized checklist(s) for A/OPCs to use when reviewing accounts, desk reference(s) for
       cardholders, etc.

   •   The action plan for implementation of a Department-wide training program for all cardholders,
       approving officials, and A/OPCs. Although, we agree with OASAM’s planned corrective action on
       training as referenced in the response to recommendation 7, we believe OASAM should encourage
       agencies to issue purchase cards to individuals tasked with making the purchases.

   •   The memorandum/policy issuance to DOL agencies that recommends including performance
       elements regarding purchase card responsibilities in performance standards of all program
       participants to better ensure accountability over the purchase card program.

   •   List of proposed Procurement Reviews as indicated above in your response to recommendation 9.

   •   The implementation plan for the Agency Purchase Card Self-Certification Program.

   •   In addition, please provide notification that the revised Purchase Card Handbook
       (1) reflects policy and procedural changes as indicated in your response, as well as instructions
       related to separation of duties, delegation of authority, and dispute resolution, (2) includes coverage
       of purchase card issues during ethics or standards of conduct classes for employees with purchase
       card responsibilities, and (3) has been posted on the Labornet by April 18, 2003.




                                                     19
    FINDING C: IMPROVED COMMUNICATION AND TRAINING WILL
               ENHANCE THE EFFECTIVENESS OF THE PROGRAM

Providing accurate and timely information to cardholders is essential in ensuring efficient and effective
program operations. Although the Purchase Card Coordinator distributed policy and program information
to A/OPCs, program participants did not receive adequate information and essential training related to the
purchase card program. As a result, program participants were not kept abreast of issues related to
purchase card operations, and were not properly trained before credit cards were received.

Communications

Under the current system, the Program Coordinator disseminates information to A/OPCs who transmit
information to purchase cardholders and approving officials. DOL’s policy does not address how purchase
card information should be disseminated to program participants. However, we found that the level of
communication provided to program participants was directly related to the A/OPCs’ expertise and how
actively involved they were in the program.

Program participants indicated that they received minimal information regarding the purchase card program
from the Department. Further, we found only a few instances where agencies developed and disseminated
their own internal procedures or supplemental guidance to ensure that cardholders understood the purchase
card process. The lack of information and instructions regarding the proper use of the purchase card and
related requirements may contribute to internal control weaknesses and abuses over purchase card usage.

There are several methods that could be used to transmit purchase card information to program participants.
The most readily available means may be through DOL’s website or Spotlight publication. Prior to our
review, these tools had not been used or considered as a means of delivering information to program
participants. In order to better ensure the success of the purchase card program, participants need to keep
abreast of program requirements, responsibilities, and updated information on a regular basis.

Training

The Standards for Internal Control in the Federal Government state that training should be aimed at
developing and retaining employee skill levels to meet changing organizational needs. GSA’s Manual
defines training as a key component of fraud prevention. However, we found that the majority of program
participant s had not received any formal cardholder training or received training only during the inception
of the program. Specifically, only one third of the A/OPCs and cardholders, and none of the approving
officials we interviewed, had completed any type of purchase card training. Resources such as GSA’s web-
based Smartpay Purchase Card training had not been utilized.

The Program Coordinator indicated that Citidirect5 , a web-based environment where A/OPCs could be
trained to use the credit card information available, is underutilized. Our review found that several
A/OPCs were unaware of Citidirect’s capabilities. Only one of the A/OPCs interviewed had taken the
Citidirect training.

Many cardholders we interviewed did not believe that training was necessary for their level of purchasing.
Further, most program participants showed little or no interest in attending and/or completing formal

5
 Through Citidirect, Citibank’s web-based electronic delivery system, designated cardholders can access account and other card-
related information on-line.
                                                              20
training since their agency management placed no emphasis on training. They believe that it would be
more helpful for the Department to circulate a fact sheet of “do’s” and “don’ts.”

According to data obtained from Citidirect, 120 new cardholders have entered the Purchase Card Program
since October 2001. However, A/OPCs do not require cardholders to receive training prior to receipt of a
purchase card. When asked if each cardholder had completed purchase card training, one A/OPC informed
us that they had no way of knowing who had formal, on- line, or any type of training.

GSA’s Manual designates training as a factor to consider in appointing A/OPCs or AOs to ensure they can
successfully perform their duties. However, Department-wide purchase card training has not been offered
to A/OPCs. The Program Coordinator forwards training opportunities that become available from such
sources as Citibank, GSA, USDA, etc. to A/OPCs. Based on discussions with program participants, we
were unable to determine whether cardholders took advantage of those training opportunities.

Cardholders with purchase authority over the micro-purchase level of $2,500 are considered by the
Department as “procurement officials,” and, therefore, are required to receive procurement ethics training.
The OIG believes that discussions regarding the appropriate use of the purchase card should not be limited
to procurement officials, and should be included in regular ethics training for employees with purchase card
responsibilities.
RECOMMENDATIONS

We recommend that OASAM:

   10. Provide more information to program participants about the purchase card
       program by doing such things as:
          • Developing materials such as a simple list of practical “Do’s and Don’ts”
              or Frequently Asked Questions (FAQs) to be distributed to employees;
          • Make use of available resources as a media, e.g. the Spotlight to
              communicate purchase card information not only to the A/OPCs, but to all
              program participants;
          • Covering purchase card issues during current ethics or standards of
              conduct classes for employees with purchase card responsibilities;
          • Informing employees that their transactions are being reviewed; and
              advise employees that disciplinary action will be taken regarding misuse.

   11. Establish formal requirements for training cardholders prior to the issuance of
       purchase cards.

   12. Survey and evaluate current A/OPCs to determine what training would be
       necessary to fully utilize CitiDirect.



OASAM’s Response

Recommendation 10: To address this recommendation:

   §   “OASAM will post on the Labornet all purchase card policy guidelines, source documentation and
       hyperlinks to federal polices (such as the GSA Blueprint for Success). As bulletins, guidelines, and

                                                    21
       policies are promulgated, the executed documents will also be posted in the 1st quarter of FY
       2003.”

   §   “In preparation for the Purchase Card Conference, we will compile recent guidance on purchase
       card operations to share with participants, and stakeholders. The Conference will include
       presentations by the Office of Inspector General, Office of Management and Budget and the
       General Services Administration. We have asked Citibank to conduct hands-on computer based
       sessions, as part of the Conference, on purchase card account management, including how to
       generate "ad hoc" reports to identify fragmented acquisitions, decline authorizations, inactive
       accounts, questionable purchases above the micro-purchase threshold, delinquent reconciliation of
       accounts, and suspicious purchases as identified by merchant category codes.”


Recommendation 11: “A training program as identified in Response # 7 and # 10 will be implemented by
the end of the first quarter of FY 2003.”

Recommendation 12: “As part of the Purchase Card Conference agenda, we will assess future training
needs of the A/OPCs, including what is needed to launch CitiDirect.”

OIG’s Conclusion

OASAM’s proposed corrective actions adequately address recommendations 10-12. Also, we noted that
your response to the third item under recommendation 10 is included in your response to recommendation
5. Therefore, we consider recommendations 10-12 to be resolved. These recommendations will be closed
after receipt of the following written documentation by this office, no later than January 31, 2003:

   •   Notification of the posting of all DOL purchase card policy guidelines, source documentation, and
       hyperlinks to federal policies on the Labornet.

   •   An action plan for implementing a Department-wide training program for all cardholders,
       approving officials, and A/OPCs.

   •   The agenda and attendance records for the planned Purchase Card Conference.




                                                    22
   APPENDIX

Agency’s Response




              23
U.S. Department of Labor                 Office of the Assistant Secretary
                                         for Administration and Management
                                         Washington. D.C. 20210




MEMORANDUM FOR SYLVIA




FROM:           EDWARD C. HUGLER
                Deputy Assistant Secretary
                For Administration and Management

SUBJECT:        Response to Evaluation of DOL ‘s Purchase Card Program Review
                Draft Report No. 2E-09-00 1-0002 Purchase Card

This memorandum responds to the draft findings and recommendations of the Office of Inspector General's (OIG)
evaluation of DOL's Purchase Card Program, dated September 13, 2002. We appreciate the balance included in the
draft report which notes, "the Procurement Executive has recently taken several positive steps to improve the
program". Overall the draft report offers useful suggestions for improving management of the DOL Purchase Card
Program.

Finding A: Management Oversight and Control of the Purchase Card Program is Inadequate

Recommendation 1: Require Agency /Organization Purchase Card Coordinators (A/OPCs) to provide updated
program participants' information on a regular basis (i.e. monthly, quarterly, semi-annual).

Response: The Procurement Executive will issue a memorandum to DOL agencies requiring an initial update of
information and will require future updates on a quarterly basis. This initial information will be captured through a
centralized database that will be maintained by OASAM, beginning November 2002. Agencies will also be requested
to review the need of their cardholders to maintain purchasing authority above the micro-purchase threshold and the
number of cardholders based on their agencies' programmatic need. Agencies will also be requested to provide a list
of those cardholders that require cards above the micro-purchase limit and justification for the number of cardholders
that exceed the recommended ratio (less than 1 :10). OASAM will conduct periodic reviews of the database to ensure
information is updated regularly. This requirement will also be included in a revised purchase card handbook.

      Recommendation 2: Examine and modify both the single purchase limits and monthly limits for
                              consistency and more realistic ceilings.

Response: As a policy, we have limited single purchase authority to $2,500, unless the purchase cardholder
is a warranted contracting officer or an individual with unique requirements who has completed appropriate
training. In the Procurement Executive's memorandum to DOL agencies (noted in Response #1 above) we
will include information on the current purchase authority of each participant. For those accounts with
single purchase card authority over $2,500, we will


                                                          24
require that A/OPCs confirm in writing that the appropriate limit is reflected. To ensure realistic monthly
ceilings are consistently established, we will require that A/OPCs evaluate prior monthly total expenditures
on a quarterly basis to determine whether monthly ceiling amounts require adjustments. In instances where
an exception is warranted, A/OPCs will be required to provide justification to the approving official and
maintain records of those approvals.

It should be noted that certain cardholders, such as warehouse personnel and organizations with a higher
volume of monthly purchases, might have a legitimate need for higher monthly limits. Currently, the
Departmental default limit is set at $10,000 per month. While there are no statutory or regulatory guidelines
establishing a monthly threshold, we will require that A/OPCs maintain justification for cardholders
exceeding the $10,000 monthly limit and closely monitor accounts that exceed that threshold.

Recommendation 3: Require agencies to review and update Merchant Category Classification
(MCC) controls to eliminate prohibited purchases.

Response: The General Services Administration (GSA) credit card contract includes various groupings of
pre-established MCC codes. After consultation with A/OPCs, we will develop a DOL template of proposed
appropriate MCC codes to be shared with the Agencies. After notifying cardholders, approving officials,
and administrative officers of this change and its potential impact on future purchases, we will instruct
Citibank to convert the current MCC controls to the new DOL default template and apply it department-
wide. Specific requests for exceptions to the default template will be reviewed by DOL's Purchase Card
Coordinator and will require the written approval of the Director, Division of Acquisition Management
Services (DAMS). I

Recommendation 4: Reexamine GSA 's recommendations for: establishment of formal criteria for the
selection of cardholders and approving offic ial accounts, single and monthly purchase limits, MCCs blocks
for usage, and deactivation or cancellation of purchase cards; and AO to cardholder common ratios of 1 :4
and 1: 10.

Response: We will examine the GSA recommendations to ensure that our written policies and
procedures are consistent with the recommended criteria. We will establish a policy for a ratio of
approving officials to cardholders within the GSA recommended ratios. The three offices that
currently exceed this ratio will be requested to adjust their operating ratios accordingly, or provide
written justification to DAMS, outlining why that ratio should be exceeded.
Finding B: Current Policy and Procedural Guidelines Do Not Adequately Address Key Aspects of
the Pro2ram

Recommendation S: Update current policy and procedures, and publish appropriate changes, including the
development of supplemental guidance and/or desk references that direct program participants on key
aspects of the program.

Response : To address this recommendation:


h      In August 2002, DOL Spotlight Number 764 was issued,' outlining conduct and
       responsibility for safeguarding and using the Department's purchase card. It specifically
       highlighted responsibility to: (I) safeguard the storage and availability of purchase cards,
       (2) ensure that only authorized official purchases are made, (3) training cardholders, and
       (4) the non-transferability of purchase cards to other individuals.

h      The Division of Acquisition Management Services will develop a standardized checklist
       for A/OPCs to use when reviewing purchase card accounts and a desk reference for
       cardholders. This checklist will allow A/OPCs to periodically review their Agency
       purchase card programs for compliance with established departmental thresholds,
       limitations and training requirements. We anticipate issuing this guidance by the end of the
       first quarter of FY 2003.

h      The DOL Purchase Card Handbook will be updated to reflect policy changes, including restricted
       or prohibited purchases, ethics and record retention requirement, reconciliation of statements, and
       purchase card logs. In addition, we will include criteria that will be used to determine if, when, and
       how credit card accounts are to suspended or terminated indefinitely ( e.g., abuse or transfer of the
       cardholder). The revised Handbook will be issued by the end of the 2nd quarter in FY 2003.

Recommendation 6: Require agencies to review their need for contracting authority for cardholders with
purchasing authority above the micro-purchase threshold and the number of cardholders based on the
agencies' need.

Response: See Response # 2.

Recommendation 7: Advise agencies to issue purchase cards to appropriately qualified individuals who
are actually making the purchases and make accessible the complete Small Purchase Handbook to all
program participants.

Response: As noted in Response #5, we have already issued DOL Spotlight No.754, which reiterates the
prohibition of the use of the card by individuals other than the cardholder designated on the card. OASAM
will work with DOL Agency financial management servicing offices, to implement a training program for
all current and new cardholders, approving officials, and A/OPCs. We will set target dates for any
individuals who are found to have not completed required training, and will monitor compliance with those
dates. This will become a part of our quarterly report and update systems with A/OPCs.
The General Services Administration (GSA) currently offers free web-based purchase card training for
cardholders and approving officials. These courses will be primary tools to conduct the training, and will be
supplemented by other sources as the need arises. OASAM will continue to explore alternative sources of
desktop purchase card training that will facilitate extending this training to the field.

In addition, we have begun planning for our first Purchase Card Conference, which will be held in the first
quarter of FY 2003. The focus of the conference for A/OPCs, approving officials and others from the
procurement community is to set a more uniform approach to managing the purchase card program. The
conference will be used to promote increased oversight and control of the purchase card program and ensure
the appropriate use of the card. As part of the conference, we will include training on
verification/reconciliation of cardholder purchases, required documentation and information on purchasing
limits. In addition, Citibank will conduct training on how to query special and ad-hoc reports.

Recommendation 8: Incorporate purchase card responsibilities in the performance standards for OASAM
program participants ~d encourage other program agencies to implement similar changes.

Response: Included in the Procurement Executive's memorandum to DOL Agencies will be a
recommendation that managers and supervisors include performance elements in the performance standards
of cardholders, approving officials, and A/OPCs. Samples elements will be provided that may be adapted tQ
reflect the specific responsibilities of their purchase card officials.

Recommendation 9: Review and address factors under GAO's "risk assessment" component for
internal controls.

Response: GAG defines "risk assessment" as an assessment of the risks the agency faces from both external
and internal sources. As noted in the draft report, DOL has a low percentage of employees with purchase
cards compared to other agencies and a low single purchase threshold that will mitigate the harm in the case
of abuse.

OASAM has also reduced the risks associated with the Purchase Card Program by monitoring, requiring
documentation, and purchase card activity review and approval. Since January 2001, OASAM has
conducted purchase card reviews of the Bureau of Labor Statistics, ETA's Office of Job Corps, and the
Mine Safety Health Administration. These reviews include a sampling of purchase card transactions in
order to determine vulnerabilities. We have specifically focused on questionable purchases, and missing
documentation. Although our reviews have revealed some inappropriate practices, to date we have not
uncovered specific examples of waste, fraud, or abuse. Additional procurement reviews are scheduled for
FY 2003. OASAM also plans to institute an Agency Purchase Card Self Certification Program.
Implementation will include the submission of data on the agencies' credit card activity, problem areas, how
problems are being addressed, and certification of the submission by the Agency Head. This annual review
will
  supplement the targeted procurement management reviews being conducted by OASAM and
     assist in identifying trends or problem areas that require increased technical assistance.

Finding C: Improved Communication and Training Will Enhance the Effectiveness of the Program

Recommendation 10: Provide more information about the purchase card program through
improved materials and training. I
Response: To address this recommendation:

h       OASAM will post on the Labornet all purchase card policy guidelines, source documentation and
        hyperlinks to federal policies (such as the GSA Blueprint for Success). As bulletins, guidelines,
        and policies are promulgated, the executed documents will also be posted in the 1st quarter of FY
        2003.

h       In preparation for the Purchase Card Conference, we will compile recent guidance on purchase
        card operations to share with participants, and stakeholders. The Conference will include
        presentations by the Office of Inspector General, Office of Management and Budget and the
        General Services Administration. We have asked Citibank to conduct hands-on computer based
        sessions, as part of the Conference, on purchase card account management, including how to
        generate "ad hoc" reports to identify fragmented acquisitions, decline authorizations, inactive
        accounts, questionable purchases above the micro-purchase threshold, delinquent reconciliation
        of accounts, and suspicious purchases as identified by merchant category codes.

Recommendation 11: Establish formal requirements for training cardholders prior to the
issuance of purchase cards.

Response: A Training program as identified in Response #7 and #10 will be implemented by
the end of the first quarter of FY 20031.

Recommendation 12: Survey and evaluate current A/OPCs to determine what training would be
necessary to fully utilize CitiDirect.

Response: As part of the Purchase Card Conference agenda, we will assess future training needs of the
A/OPCs, including what is needed to launch CitiDirect.

I believe that we have addressed the issues raised in the draft report. If you need additional information,
please have a member of your staff contact Jeffrey Saylor at (202) 693-7282.

cc: Patrick Pizzella
